No.

IN THE
SUPREME COURT OF THE UNITED STATES

DALE CHESTER HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petitioner for Writ of Certiorari
To the Florida Fifth District Court of Appeal

CERTIFICATE OF SERVICE

I, Crystal McBee Frusciante, member of the Bar of this Court, hereby certify
that on this 21 day of September, 2020, a copy of the Petition for Writ of Certiorari in
the above-entitled case was mailed first class postage, prepaid, to:

Office of the Attorney
444 Seabreeze Blvd, Suite 500
Daytona Beach, Florida 32118

1

I further certify that all parties required to be served have been served.
Respectfully submitted,
/s/__Crystal McBee Frusciante____
CRYSTAL MCBEE FRUSCIANTE
Frusciante Law Firm, P.A.
11110 West Oakland Park Blvd., Suite 388
Sunrise, Florida 33351
(954) 551-2350
FL Bar No. 802158
Email: crystal@frusciantelaw.com

2

